<html>
<title> - EXAMINING WHAT A NUCLEAR IRAN DEAL MEANS FOR GLOBAL SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






      EXAMINING WHAT A NUCLEAR IRAN DEAL MEANS FOR GLOBAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 20, 2014

                               __________

                           Serial No. 113-224

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
 
                         U.S. GOVERNMENT PRINTING OFFICE 

91-459 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                               
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
DOUG COLLINS, Georgia                BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina         JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts
SEAN DUFFY, Wisconsin                GRACE MENG, New York
CURT CLAWSON, Florida                LOIS FRANKEL, Florida

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Michael Hayden, USAF, Retired, Principal, The Chertoff 
  Group (former Director of the Central Intelligence Agency).....     9
Mr. Mark Dubowitz, executive director, Foundation for Defense of 
  Democracies....................................................    16
Mr. Karim Sadjadpour, senior associate, Middle East Program, 
  Carnegie Endowment for International Peace.....................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Michael Hayden, USAF, Retired: Prepared statement........    12
Mr. Mark Dubowitz: Prepared statement............................    18
Mr. Karim Sadjadpour: Prepared statement.........................    43

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    70

 
      EXAMINING WHAT A NUCLEAR IRAN DEAL MEANS FOR GLOBAL SECURITY

                              ----------                              


                      THURSDAY, NOVEMBER 20, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. This subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will recognize other 
members seeking recognition.
    We will then hear from our witnesses, and, without 
objection, the witnesses prepared statements will be made a 
part of the record. Members may have 5 days in which to insert 
statements and questions for the record, subject to the length 
limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    We are now just a few days away from the Iran nuclear 
deadline, and the P5+1 appear poised to accept a weak deal with 
a regime that cannot be trusted.
    Despite approximately $14 billion in direct sanctions 
relief, as well as incalculable indirect benefits to the 
Iranian economy and the nuclear program, Iran has repeatedly 
stated that it will never stop enriching uranium or take one 
step back in its research and development.
    Despite a 4-month extension of talks and allowing Iran 
access to an additional $700 million of its blocked currency 
each month, Iran's Supreme Leader 2 weeks ago called for the 
destruction of our greatest ally in the Middle East, the 
Democratic Jewish State of Israel.
    Iran recently claimed its ballistic missiles are capable of 
razing Israeli cities and American military bases in the region 
to the ground. Iran has called for a Palestinian incitement 
against Israel, the result of which can be seen in the tragic 
murders 2 days ago of five Israelis, three of whom were U.S. 
Citizens in Jerusalem synagogue as they were praying.
    From the onset, Iran has not complied with the terms 
outlined by the P5+1, exporting more oil than allowed, 
continuing production at the Arak heavy water reactor, denying 
access to key facilities, and dragging its feet every step of 
the way. The International Atomic Energy Agency has confirmed 
that Iran isn't even cooperating with its past commitments, 
such as completely disclosing its past work on nuclear 
weaponization.
    Rouhani, who bragged in the past about deceiving the 
administration, as its chief negotiator, is known for using 
stall tactics while continuing to advance Iran's nuclear 
weapons program behind the scenes. And our leadership in the 
White House falls for it.
    The administration turns a blind eye to Iran's support of 
terrorism, its constant threats against the United States and 
our allies, and its failure to cooperate even during this 
negotiation period. It ignores every lesson we thought we 
learned when North Korea delayed its way into a nuclear weapon. 
President Obama even sends secret letters to the Supreme 
Leader, naively hoping to appeal to the rational side of a man 
who has proven himself to be anything but.
    The Iranians have made clear that no matter what a final 
deal contains, they will not stop enrichment and will not allow 
access to sites like Parchin and who knows how many other 
covert sites.
    As General Hayden has stated, because of the covert nature 
of Iran's activities, American intelligence alone will not be 
able to verify the agreement. And, if he would still be 
advising the President, he would tell him that this deal could 
not be adequately verified.
    Iran must be completely transparent about its current and 
past programs, including its weaponization programs and accept 
snap inspections anywhere, any time. But experience and a track 
record tells us that Iran will not do so. It is impossible to 
verify Iran's nuclear program because, as a Defense Science 
Board report has said, ``The capability to detect Iran's 
undeclared or covert nuclear sites is either inadequate or does 
not exist.''
    Finally, the administration has misunderstood the point of 
sanctions, sanctions that Congress worked hard to build from 
the very beginning. The sanctions regime that Congress put into 
place was designed to work together. The sanctions are 
interconnected to target, not just the nuclear program, but 
Iran's ballistic weapons program and human rights abuses as 
well.
    The P5+1 has allowed Iran's economy to grow, its currency 
to strengthen, and has provided a dangerous amount of 
concessions and sanctions relief to the regime based only on 
its nuclear program. And they have given Iran the time and 
money it needs to be more resilient and even better able to 
weather sanctions in the future. The effect of sanctions takes 
time and it cannot be easily re-implemented or once lifted or 
once suspended.
    Yet all indications are that President Obama, if a final 
deal is reached, would seek to lift sanctions or use waiver 
authority provided within the sanctions law. These waivers, 
however, are national security waivers. It is not in the 
national security interest of the United States to provide Iran 
additional access to cash with which it can proliferate and 
expand other ilicit activities, specifically, its support for 
global terror.
    Just last week, the President reissued a continuation of 
the national emergency with respect to Iran, a status which has 
been in place since the Iran hostage crisis in 1979. It strains 
the imagination to see how the President can, on one hand, 
declare Iran as a national emergency, yet on the other waive 
sanctions and say, Iran is not a national security threat. 
Congress needs to reclaim its sanction authority from this 
administration, do everything it can to prevent this weak deal 
from happening.
    So let me be clear, no matter what the P5+1 does, Congress 
should not allow a deal that threatens our national security 
interest to stand, and we intend on repairing the damage that 
has been done as soon as possible. We must reinstate and expand 
sanctions, and we must not allow Iran to get a nuclear bomb.
    Either the P5+1 secures the deal that includes the complete 
cessation of Iran's enrichment and the full dismantling of its 
nuclear infrastructure or it must walk away from these doomed 
talks altogether.
    And with that, I am pleased to yield to my good friend from 
Florida, the ranking member, Congressman Ted Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    Thanks for holding this extremely timely hearing as we are 
just 4 days away from the November 24th deadline to reach a 
deal to prevent Iran from acquiring a nuclear weapon.
    Madam Chairman, often we are told these hearings that--
often when we are told that, in these hearings, we have 
important points to make, 5 minutes is not enough to lay out 
the complex issues that we are tackling in the Middle East. But 
today it really comes down to one simple question. Will we 
prevent Iran from acquiring nuclear weapons capabilities?
    I don't think any of us are under the illusion that a 
satisfactory and comprehensive deal will be reached on Monday. 
But let me be clear, any deal must cut off all of Iran's 
pathways to a nuclear weapon; and this specifically includes 
the Arak reactor. A deal must dismantle Iran's centrifuge 
program to prevent Iran from becoming a threshold nuclear 
state, create robust verification and monitoring mechanisms to 
prevent undetectable breakout, force Iran to come clean on its 
past nuclear activities, including impossible military 
dimensions and cover a long enough duration that the regime 
won't simply wait it out.
    In the absence of a deal on Monday, we could be left with 
alternative outcomes. Either an extension of talks under the 
current terms or framework agreement with details to be 
addressed in the future negotiations or final recognition that 
the clerics running around never intended to make a deal at 
all. Any suggestion that talks should be extended must include 
verifiable mechanisms to prevent Iran from covertly advancing 
its nuclear program.
    Madam Chairman, I can't stress enough to our negotiators in 
Vienna and our P5+1 partners how seriously we take the 
implementation of a strict verification and monitoring process. 
This regime has unfortunately proven itself untrustworthy time 
and time again. We have uncovered covert nuclear facilities. We 
have discovered military dimensions to its nuclear program, the 
development and testing of ballistic missiles, the arms shipped 
to terrorist groups, all in direct violation of United Nations 
Security Council resolutions.
    If an extension is suggested, it must be for a clearly 
defined and limited time. Iran cannot be allowed to negotiate 
in perpetuity, dragging things out while continuing to receive 
sanctions relief in exchange for incremental baby steps. The 
current status quo will not be the accepted new normal. Now is 
the time for Iran to take significant steps to show the world, 
once and for all, whether or not it is serious.
    And if an extension is proposed, Congress should make clear 
to Iran that sanctions will be ratcheted up dramatically at the 
expiration of an extension period. This will finally make Iran 
understand the ramifications of failing to yield on its pursuit 
of a nuclear weapon.
    And while the world has been focused for the past year on 
nuclear negotiations, this regime has continued to engage in 
the most egregious human rights abuses against its own people, 
something that we hear too little about. Make no mistake, deal 
or no deal, we will not continue--we will not overlook Iran's 
abysmal human rights record.
    Yesterday, United Nations issued a strong rebuke to the 
regime on human rights, adopting a resolution criticizing 
Iran--and I quote--``alarming high frequency and increase in 
the death penalty, widespread restrictions on basic freedoms 
and worsening discrimination and persecution of women and 
minorities.''
    This regime, during the Rouhani presidency, has executed 
over 850 people in the past 15 months. This includes 12 
executions in one prison over 11 days in October. Religious 
minorities, women, and the LGBT community continue to be 
persecuted. Access to free press and the internet is blocked. 
Communications are monitored and people are detained for 
expressing dissent toward regime policies.
    Iran has not fulfilled its promises of assistance in our 
efforts as well to find my constituent, Robert Levinson, who 
has now been missing and separated from his wife, children, and 
grandchildren for 2,813 days. It has not released the other 
Americans imprisoned or Washington Post journalist, Jason 
Rezaian, who has been held without charges for over 120 days.
    This regime may no longer have the bombastic spokesman, 
Ahmadinejad, to incite anti-Semitism and spew vitriol. But that 
hasn't stopped the Supreme Leader from issuing just recently a 
nine-point plan on why and how Israel should be annihilated. It 
hasn't stopped the regime's unabated support for the murderous 
Assad regime, or it relentless support for Hezbollah's 
terrorism around the world. It hasn't stopped its meddling in 
Iraq, and Yemen, and Bahrain, and other Gulf countries.
    Look, I want to see a diplomatic solution to the nuclear 
crisis. The best resolution would be to reach a comprehensive 
deal that addresses all of the points that I laid out earlier. 
But even if a nuclear deal is reached, Iran must know that its 
behavior will not be accepted by responsible Nations. We will 
speak out against the regime's barbaric treatment of its own 
people. We will continue to enforce sanctions on those who 
perpetuate these abuses. And we will continue to go after the 
regime's financial and military support of terrorist 
organizations.
    I know we are all anxiously awaiting Monday's deadline, and 
I would just like to repeat what we have heard from the 
administration since day one, ``No deal is better than a bad 
deal.'' A bad deal will gravely threaten the safety and 
security of the United States, of our allies in the region, 
especially Israel.
    And, Madam Chairman, let me be clear about one last thing, 
those of us who may question the merits of an inadequate deal 
are not on a march and do not advocate a march to war. We 
simply do not want to see an agreement that allows Iran to 
acquire a nuclear weapon right under our noses.
    Again, I thank our witnesses for appearing today. You each 
bring unique expertise and insight into Iran's domestic and 
foreign policy, and I look forward to a productive discussion.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And now I will recognize other members for their opening 
statements.
    Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you, Madam Chairman.
    And I would like to join in with Congressman Deutch to 
reiterate that this is an untrustworthy regime. It is 
untrustworthy to its citizens, indeed the violations of human 
rights, the subjugation of the women of Iran.
    We know this is the great culture of Persia. More should be 
expected of such an extraordinary country, but the people are 
being subjugated. And, then, at the same time, we have an 
American administration that, I think, is being extraordinarily 
naive.
    Our country, we should remember the inhumanity of the 
hostage crisis, the taking of our Embassy in 1979, violating 
every norms of civilized law, international law. Additionally, 
I will never forget that it was Iran that directed the bombing 
of the Marine barracks at Beirut, hundreds of Americans were 
killed. It was the largest explosion since Nagasaki. And then 
the IEDs provided to terrorists to kill American personnel, 
Iraq, Afghanistan. Having two sons serve in Iraq, another in 
Afghanistan, it was quite personal to me.
    We should remember that their signs carried, in English for 
our benefit, ``Death to America. Death to Israel.'' And that is 
the way the negotiations should be conducted as people not 
trustworthy.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Wilson.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair, for holding this 
important hearing.
    The nuclear--a nuclear Iran would have severe repercussions 
for America's security and that of our allies, further 
destabilizing an already volatile region and emboldening a 
already dangerous regime.
    Preventing Iran from obtaining a nuclear weapon is a major 
strategic imperative of the United States and must be 
continued. As the deadline for concluding a nuclear deal 
approaches, it is useful to provide some context on the 
evolution of Iran's nuclear program. In the past, Iran 
cynically used the negotiations process with the EU Nations in 
order to continue enrichment activities and protect itself from 
United States intervention. Now, Iran has built out its 
capacity to 19,000 centrifuges.
    Stiff sanctions are what brought Iran to the table, and 
they must continue to be our leverage point. I fear that by 
continuing to provide sanctions relief in exchange for vague 
commitments by the Iranians, we are helping to rehabilitate an 
Iranian economy and eroding a robust and effective sanctions 
policy.
    I look forward to the testimony of our witnesses.
    Thank you. I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Yoho.
    Dr. Yoho. I have no opening statement, Madam Chair.
    Ms. Ros-Lehtinen. Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chairwoman, for holding this 
important hearing and your diligence on this subject.
    You know, between the time we left before the election and 
reconvene, there were two troubling reports. One was the report 
of the President writing a letter to the Ayatollah about 
potential common interests that we may have with Iran to fight 
ISIS, and then the other report that was troubling was that the 
Iran deal was most likely to be constructed in a way to avoid 
scrutiny by Congress.
    And so I looked at that and said, they want Iran to be a 
constructive force in Iraq and what type of consideration are 
they going to provide in these nuclear negotiations, because I 
don't think we are likely to be successful anyways. And I 
really fear that we could be running into a catastrophic policy 
outcome, and I think it is very incumbent on the Congress to 
insert ourselves in this.
    We should not allow a bad deal to go without us having to 
vote and, if it is a bad deal, then, we need to be strong and 
impose sanctions. There would have been sanctions to pass the 
Senate, except for one man, Harry Reid, would not let that come 
for a vote. In January, there is a new sheriff in town.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. DeSantis.
    Mr. Vargas of California.
    Mr. Vargas. Thank you very much, Madam Chair.
    And witnesses for being here today.
    I have always believed that it has been naive to negotiate 
with Iran over their nuclear program. I think the Iranians, 
their negotiating policy, really is to stall and they have 
stalled. And they have extended, and they have extended. I 
think they are going to continue to do that.
    I thought the appropriate approach was to pass more 
comprehensive sanctions. I did that here, and I thought that 
they had to really pick, then, between they want an economy 
that functioned, a society, or did they want their nuclear 
program. They couldn't have both. Unfortunately, we are down 
this path, and it looks like they want to extend and stall once 
again.
    I hope that we will get back to the sanctions. I hope that 
we pass stronger sanctions, and I think that that is the way to 
go. They have to make a decision. Do you want this nuclear 
program, or do you want a functioning society?
    I thank you again, Madam Chair, for holding this hearing.
    Ms. Ros-Lehtinen. Thank you, sir.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair.
    I think we are all mindful that one of the ramifications of 
Iran obtaining nuclear weapons is the potential of 
proliferation in the region. And so, as you testify today, I 
would be interested in hearing what other countries you think 
might seek to obtain nuclear weapons and how would that relate 
to what is going on with ISIL?
    Ms. Ros-Lehtinen. Very good question.
    Thank you.
    Ms. Frankel. I yield the rest of my time.
    Ms. Ros-Lehtinen. Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chairman, and Ranking 
Member Deutch for holding today's hearing on this issue that is 
really vital to the U.S. national security interests.
    The continuing threat that Iran poses to international 
stability is of paramount concern to the United States and to 
our national security interest. I certainly appreciate the 
efforts made by the administration and the P5+1 in negotiations 
with Iran pursuant to the terms of the joint plan of action, 
but serious questions remain regarding Iran's interest in 
reaching a final deal and Iran's intention of arming the terms 
of any agreement, even if one were reached.
    While reports suggests that some small progress has been 
made in the negotiations, we must remain vigilant to ensure 
that any comprehensive deal truly protects the national 
security interests of the United States and our allies around 
the world. We will need to ensure that Iran complies with 
international law and any restrictions and requirements agreed 
to in a final deal are verifiable and, also, guarantee that 
Iran is unable to develop a nuclear weapons capability, period.
    Finally, I want to note that it is crucial that Congress 
and the administration continue to work together, not 
separately to best achieve the foreign policy priorities of the 
United States, an agreement that once and for all prevents a 
nuclear Iran.
    I thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman.
    Madam Chairman, let's stipulate, we don't like Iran. Let's 
also stipulate we don't want a nuclear Iran. They are two 
different things to conflate the need for domestic reform in 
Iran to the point where it is pluralistic, democratic, 
inclusive, and respects all human rights, otherwise, we are 
never going to sit down with them and negotiate a nuclear deal, 
is a very perilous proposition. We don't live in an ideal 
world.
    The interim agreement, according to the International 
Atomic Energy Agency, has produced pursuant to the agreement. 
There are no new centrifuges. Construction has been halted in a 
heavy water facility reactor at Arak. Five percent uranium 235 
stockpiles remain at pre-JPOA levels, and 20 percent uranium 
235 stockpiles have been eliminated. It ain't perfect. We would 
like to finalize a final agreement. But if we make perfect be 
the enemy of the good, we are condemning the world to a 
confrontation over Iran. And I think most Americans want to 
avoid that if that is possible.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairwoman, and thank you 
for calling this hearing. Thank you for your profound remarks.
    Also, the ranking member, Mr. Deutch, I want to associate 
myself with those remarks as well.
    There is no newspaper big enough to cover all of the issues 
happening around the world today. But every day, not just 
today, every day the number one story at the top of the fold 
has to be preventing a nuclear Iran.
    If there is going to be a deal, it must only be a good 
deal. And a good deal will only be such if it blocks all of 
Iran's pathways to a nuclear weapon and not temporarily, but 
permanently across generations. It has to be a deal that blocks 
their programs for enrichment, weaponization, and delivery 
systems. But it must also deal with Iran's support of 
international terrorism and Iran's threats to the region as 
well as its human rights violations. We must have a deal that 
blocks that and protects, not just the region, but the entire 
world.
    I look forward to hearing from all of our witnesses to hear 
what you have to say how we might best get to the that or what 
happens if we don't.
    Thank you.
    Ms. Ros-Lehtinen. Thank you, sir.
    And now I will turn to Mr. Cotton of Arkansas.
    Mr. Cotton. Thank you.
    In the interest of time, I will speak very briefly and just 
say that I am doubtful that any deal could be reached with this 
Iranian regime that would stop this Iranian regime from 
pursuing nuclear weapons, and I hope that the President will 
take the right action to keep America and our allies safe in 
the region.
    And I look forward to hearing what the witnesses have to 
say on these matters.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Kennedy of Massachusetts.
    Mr. Kennedy. Madam Chair, than you very much.
    To the ranking member, thank you both for hosting an 
important hearing.
    To the witnesses, thank you for, once again, appearing 
before this committee and thank you for your service to our 
country as well.
    There are a number of issues obviously before this Congress 
and before the next one. Very few have the potential of a 
generational impact like an Iranian nuclear weapon and the 
cascading effects throughout the region. I would ask to--I 
would like--I want to get to your testimony, your comments.
    I would like to hear from the witnesses at some point, if 
you can speculate a little bit, assuming that a deal is not 
reached on the 24th, what happens then, particularly with 
regards to, I would say three points in building off my 
colleague, Ms. Frankel, with regards to Russia and our 
relationship with Russia, with regards to Iraq, and with 
regards to ISIL and Syria?
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you, sir.
    And now I will introduce our witnesses.
    First, we are all very pleased to welcome General Michael 
Hayden, who has had a very impressive and distinguished career. 
Over his 40-year career, he rose through the ranks to become a 
Four-Star General, the Director of the National Security 
Agency, the first Principal Deputy Director of National 
Intelligence and the Director of the Central Intelligence 
Agency. General Hayden is now a principal with the Chertoff 
Group, and we welcome him here today and we thank him for his 
service. Thank you very much, General.
    Next, we welcome back to our committee Mr. Mark Dubowitz, 
executive director of the Foundation for Defense of 
Democracies, where he leads projects on Iran, sanctions, 
proliferation, as the head of FDD's center on sanctions and 
ilicit finance. Mr. Dubowitz is the author of 15 studies on 
economic sanctions against Iran, and he is also co-chair of the 
project on U.S.-Middle East nonproliferation strategy. Welcome, 
Mark.
    And, finally, we also welcome back Mr. Karim Sadjadpour, a 
senior associate at the Carnegie Endowment for International 
Peace. Prior to this, Mr. Sadjadpour was the chief Iran analyst 
at the International Crisis Group and he is a board member of 
the Banu Foundation, an organization dedicated to empowering 
women worldwide.
    We are very pleased with the high quality of our witnesses 
today; your prepared remarks will be made a part of the record. 
Please feel free to synthesize them for us.
    General Hayden, we will begin with you, sir.

STATEMENT OF GENERAL MICHAEL HAYDEN, USAF, RETIRED, PRINCIPAL, 
THE CHERTOFF GROUP (FORMER DIRECTOR OF THE CENTRAL INTELLIGENCE 
                            AGENCY)

    General Hayden. Thank you, ma'am, and thanks for the 
opportunity to testify today.
    In the nearly 6 years since I have left government, people 
have asked me, ``What keeps you awake at night?'' Iran has 
always been in my list. In fact, let me add that Iran was the 
problem with which I was least satisfied when I left government 
in February 2009. We certainly did not hand our successors a 
pretty package here.
    And so I said to myself, with the questions Mr. Schneider 
and Mr. Kennedy brought up, it is the problem I think that has 
most consistently continued to worsen in the intervening 5\1/2\ 
years.
    Now, we are involved in nuclear negotiations with the 
Islamic republic and, no doubt, as you have pointed out, that 
is the product of the tough sanctions that two administrations 
have levied against Tehran. Now, the real question before us 
is, can we come out of these negotiations with a nuclear 
agreement that will give us confidence that we will have the 
time, the certainty, and the will to prevent Iran from becoming 
a nuclear weapon state at any time in the future?
    Now, I come at this as a professional intelligence officer, 
so I will keep my remarks pretty much in that lane.
    First point I would like to make is Iran is a tough 
intelligence target. During my time as Director of CIA, Iran 
was the second most discussed topic in the Oval Office. The 
only one more discussed was terrorism. And, frankly, there 
wasn't a number three. I mean, we talked about a lot of other 
things, but we didn't aggregate around it like we did terrorism 
and Iran.
    President Bush used to ask me two kinds of questions. One 
basket was, ``What does the program look like? How much low-
enrich uranium, how many centrifuges?'' The other basket of 
questions was simply, ``How do these guys make decisions? How 
do I influence their processes going forward?''
    I always wanted the nuclear questions because Iran is an 
incredibly, incredibly opaque society. So we should be under no 
illusions that we can precisely define the motivations or the 
future plans of the various power centers that vie for control 
in Tehran today. So that gives me little confidence about any 
plan of action predicated on helping the moderates in Tehran.
    Second, our knowledge of the Iranian nuclear program is 
incomplete. That is why I believe an important element of any 
agreement has to be far more transparent than we have today 
about the past history of Iranian nuclear efforts. It is 
particularly disheartening, as you said, Madam Chairman, when 
the IAEA is denied access to facilities and information that 
they think they need to judge Iranian compliance.
    Look, the objective of these talks is to put distance 
between where the Iranians are parked and where they have to be 
to have a weapon. It is near impossible for us to judge whether 
the distance is adequate without a full accounting of the work 
they have done to date in secrecy.
    Third, even with incomplete knowledge on the program, it is 
my belief that, at a minimum, Iran is keeping its options open, 
working very hard to keep its options open for a nuclear 
weapon. There is no other logical explanation for their 
investment in time, energy, commerce, and prestige that they 
have been willing to make.
    Now, I say that fully aware that I was in government when 
we produced a national intelligence estimate in 2007 that said 
that Iran had stopped a part of its nuclear weapons program. 
And that judgment was not based on the absence of evidence. It 
was indeed based on evidence of absence. They had stopped some 
work, but that was far more tactical than strategic. Some of 
that work has resumed in other important aspects, like creating 
fissile material and ballistic missile technology. That 
continued to pace.
    A fourth point. Iran is already close to a weapon--too 
close to a weapon. The point of the negotiations, from our 
point of view, has to be to roll the program back, not freeze 
it in place. That means that certain activities, stocks, 
facilities have to be dismantled. From all accounts, the 
Iranians have not been very forthcoming on that important 
subject; and so I would be very cautious about creative 
solutions that have been put forward in place of the actual 
dismantlement of facilities and equipment and stockpiles.
    Ms. Frankel, an Iran that is parked too close to a nuclear 
weapon will pretty much have the same destabilizing effect on 
the region as an Iran that has just tested a nuclear weapon. 
The Sunni neighbors will draw their conclusions, and they will 
act accordingly, and I know that this committee understands how 
harmful that would be for the entire region.
    A fifth and final point has to do with verification. I had 
to deal with this question at the end of the Bush 
administration when we were negotiating with the North Koreans. 
At that time, in NSC meetings, I pressed for an invasive 
verification regime as a necessity for any agreement because I 
was unwilling to guarantee that American intelligence could 
sufficiently verify the agreement on its own.
    So let me repeat that position for the question before us 
today. Absent an invasive inspection regime, with freedom to 
visit even suspect sites on short notice, American intelligence 
cannot provide adequate warning of Iranian nuclear 
developments.
    I know there are many other aspects of the issue that the 
committee will want to explore, and I look forward to that 
discussion, ma'am.
    Ms. Ros-Lehtinen. Thank you so much. That was very clear.
    [The prepared statement of General Hayden follows:]
    
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Mr. Dubowitz.

STATEMENT OF MR. MARK DUBOWITZ, EXECUTIVE DIRECTOR, FOUNDATION 
                   FOR DEFENSE OF DEMOCRACIES

    Mr. Dubowitz. Chairman Ros-Lehtinen, Ranking Member Deutch, 
members of the subcommittee, on behalf of FDD, thank you for 
inviting me again to testify.
    I am honored and certainly humbled to be testifying with 
General Hayden and with Karim Sadjadpour, whose work and 
service to our country I greatly admire.
    As many of you have said, Iran is at this negotiation table 
because of you, because of the sanctions that you have passed. 
Now, Congress has attempted to do other things. You have 
attempted to establish clear parameters for what constitutes an 
acceptable nuclear deal. You have attempted to put in place 
sanctions and waiting to increase American leverage. You have 
attempted to set a strict timeline for the conclusion of a 
deal, and you have attempted to demand that a final deal should 
be put to a vote in Congress.
    The administration has blocked all of these efforts. 
Congress should continue pushing on all of these fronts, but it 
should also defend the very sanctions architecture that was so 
instrumental in creating. This is going to be essential to 
enforce any Iranian nuclear deal, to provide increased leverage 
to respond to Iranian noncompliance, and to deter and punish 
Iran's elicit activities. Because after detection, what? What 
leverage are we going to have left to force the Iranians back 
into compliance?
    Now, a negotiated agreement is the preferred solution to 
peacefully resolve this nuclear crisis. Iran's record of 
nuclear deception, its sponsorship of terrorism, it egregious 
human rights abuses, all of this does not inspire confidence in 
Tehran's commitment to honor a final nuclear agreement.
    Moreover, the administration may not be demanding the best 
deal it can get. Administration officials are on record 
actually, in the past 7, 8 months as committing to a deal that 
will ``dismantle'' ``a lot'' or ``significant portions'' of 
Iran's nuclear infrastructure. But the terms of a deal could 
fall far short of that. The more flawed the deal, the more 
important it will be for Congress to defend the sanctions 
architecture to maintain economic leverage.
    Now, the administration has reportedly studied how it might 
suspend the ``vast majority of sanctions'' after a nuclear deal 
while bypassing you. In response, Congress needs to stand 
behind the July 2014 letter that was signed by 344 members of 
the House of Representatives. It affirmed ``that the concept of 
an exclusively defined nuclear-related sanction on Iran does 
not exist in U.S. law'' and that ``almost all sanctions related 
to Iran's nuclear program are also related to Tehran's 
advancing ballistic missile program, intensifying support for 
international terrorism and other unconventional weapons 
programs.''
    Based on press reports, it appears that the administration 
and perhaps the EU and the U.N. Security Council are designing 
a phased program of sanctions relief, using suspensions and 
snapbacks where sanctions will be suspended and only reimposed 
in the event of Iranian noncompliance.
    Now, the legalities of snapbacks are simple, but the 
politics and economics are very complicated. A premature 
suspension of U.S., UNSC, and EU sanctions an overreliance on 
snapbacks could seriously undermine the Iran sanctions regime 
and give Iran's nuclear program political legitimacy.
    At the U.S.-EU UNSC, there would have to be agreement that 
there is sufficient evidence of Iranian noncompliance to 
warrant a decision to reinstate these sanctions. Significant 
disputes are inevitable about the seriousness of infractions, 
the appropriate level of response, and possible Iranian 
retaliation.
    Furthermore--and this is a concern a number of members have 
expressed today--the administration may not respond effectively 
to evidence of Iranian noncompliance for fear that enforcement 
could prompt Iranian countermeasures. Now, this is particular 
disconcerting amidst reports of a growing U.S.-Iran detente and 
possible coordination to weaken ISIL.
    The snapback is equally challenging to implement, given 
certain economic reality. Sanctions took years before 
international companies terminated their business ties with 
Tehran. Once loosened, it is going to very difficult to get 
those companies to leave again.
    Iran also enjoyed substantial psychological benefits from 
inking a deal. That will translate into improved macroeconomic 
conditions as it already has under the JPOA. The administration 
seriously underestimated the value of sanctions relief under 
the JPOA. It did not account for the psychological impact on 
Iran's macroeconomic environment. As a result, Iran's economy 
has shown signs of stabilization, reflected in modest GDP 
growth, a stabilization of the currency, and a significant drop 
in inflation.
    As Iran's economic recovery becomes less susceptible to 
snapback sanctions, economic pressure is going to be a less 
effective tool to respond to Iranian nuclear noncompliance. 
This will make it more likely that the U.S. will be forced to 
cheat--or forced to choose between either tolerating Iran's 
cheating or using military force to respond to violations. And 
that is unrealistic, given that this regime tends to cheat 
incrementally.
    In my written testimony, I provide detailed recommendations 
in how Congress can defend its sanctions architecture, 
including how to limit ways the administration could act 
unilaterally.
    In conclusion, Congress has a vital role to play to protect 
and enhance U.S. economic leverage, and this leverage is going 
to be essential to enforce a deal and pressure Tehran to end 
all of its ilicit activities. Thank you very much.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Dubowitz.
    [The prepared statement of Mr. Dubowitz follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. Mr. Sadjadpour.

  STATEMENT OF MR. KARIM SADJADPOUR, SENIOR ASSOCIATE, MIDDLE 
    EAST PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Sadjadpour. Thank you to the committee. It is a real 
honor to be here.
    I would like to preface my comments by saying that I think 
everyone in this room shares the same goal. We want to avert a 
nuclear armed Iran. We want to avert another military conflict 
in the Middle East, and we want to see Iran's transformation 
into a more democratic, tolerant government.
    I would like to focus my comments in three separate parts. 
First, internal implications of the nuclear talks within Iran, 
second the regional implications of the nuclear discussions 
and, third, the implications for U.S. policy.
    Let me start with Iran internally. The paradox of Iran is 
the fact that you have a society which aspires to be like South 
Korea, prosperous and integrated, and you have a regime which 
shows a much greater resemblance to North Korea, prioritizing 
isolation, ideological purity, and militarization.
    The optimists, proponents of a nuclear deal would argue 
that a deal could strengthen the hand of the moderates in 
Tehran and strengthen civil society. And, again, a more 
integrated Iran is good for the interests of our more pragmatic 
factions in Tehran.
    Skeptics would argue the opposite that what we have seen in 
the last few weeks, as Representative Deutch alluded to, are 
increased human rights abuses. In the event of a deal, it is 
possible that the repressive apparatus of the Islamic republic 
will show even greater repression in order to signal to the 
population that external flexibility doesn't signal internal 
weakness.
    My own take is that both of these outcomes are possible in 
the event of a deal. And that both Iranian civil society could 
be strengthened, but we will also see a backlash at the hand--
by the Iranian hardliners. But it is important to note that 
Iranian--Iran civil society and human rights community has been 
overwhelmingly supportive of seeing a deal, whereas the more 
hardline, revolutionary elite in Tehran have expressed a real 
concern that this could possibly undermine their hold on power.
    Let me move next to the regional implications of these 
regional talks. The optimists would argue that a nuclear deal 
could strengthen greater--could foster greater U.S.-U.N. 
cooperation in the Middle East on issues of mutual concern, 
whether that is Syria, Iraq, or Persian Gulf security. The 
skeptics would argue that a nuclear deal would actually provide 
Iran a financial boost to buttress forces like the Assad regime 
in Syria or to militant forces, whether in Hezbollah or Shiite 
militias in Iraq.
    My own sense is that, over the last 35 years, we have seen 
tremendous consistency in Iran's foreign policy in the Middle 
East. I would argue the twin pillars of Iran's regional policy 
has been rejecting U.S. influence and rejecting Israel's 
existence. And I haven't seen, either a historic precedence or 
any recent evidence, to suggest that Iran is prepared to 
abandon these long-held principles in the region.
    In fact, one of the fault lines between the moderate forces 
and Tehran and the hardliners is that moderate forces have, in 
the past, shown themselves willing to work with the United 
States against mutual regional adversaries, such as the 
Taliban, whereas hardline forces in Tehran have shown 
themselves willing to work with groups like Taliban or even al-
Qaeda against the United States.
    So my sense on the regional implications of these nuclear 
talks is that, as long as Iran's supreme leader, Ayatollah 
Khamenei, remains in power, we won't see any major changes in 
Iran's regional policies.
    Let me end on talking about the implication for U.S. 
policy. I think, as one of the members alluded to earlier--and 
I would agree--my sense is that we will neither see a 
comprehensive resolution, nor a comprehensive failure come next 
Monday. We will more likely see a limited agreement used to 
justify an extension of the negotiations. I understand that, in 
the past, sanctions have proven to be effective at forcing Iran 
to come to the negotiating table and negotiate in a serious 
way.
    My concern, however, is that in the event of an impasse, 
premature and unilateral sanctions by the United States, which 
don't enjoy the support of our allies, could actually 
jeopardize P5+1 unity and trigger Iran to reconstitute their 
program. I believe that Iran's abrogation of the interim deal 
should trigger additional sanctions, rather than additional 
sanctions triggering Iran's abrogation of the interim deal.
    And lastly, I would just like to say that I believe that 
U.S. policies that have proven necessary to counter Iran's 
nuclear ambitions in a way are at loggerheads with U.S. 
policies necessary to facilitate Iran's--the transformation of 
political change within Iran. I believe that what we have seen 
necessary to counter Iran's nuclear ambitions has been economic 
and political isolation, whereas Iranian civil society, Iran's 
human rights community overwhelmingly believes that, in order 
to foster change in Iran, they need more political and economic 
intervention. So I think we need to think more creatively about 
how to reconcile these two policies. I will stop there.
    Ms. Ros-Lehtinen. Thank you very much.
    [The prepared statement of Mr. Sadjadpour follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you to all of our witnesses. I will 
begin the question-and-answer period.
    As the author of the strongest set of sanctions currently 
on the books, the Iran Threat Reduction and Syria Human Rights 
Act of 2012 and the Iran Freedom Support Act of 2006, I know 
how hard it was to have these sanctions with teeth and how hard 
it is to get the administration to enforce them.
    The P5+1 started from a position of weakness and proceeded 
to give up too much too fast, and the Iranians have taken 
advantage every step of the way. The Iranians cannot be 
trusted. It is impossible to verify their nuclear program, and 
Rouhani has been on record bragging about his ability to 
deceive the administration.
    General Hayden, you have said that Iran and its nuclear 
program are among the things that keep you awake at night. You 
are also on record as saying that Iran isn't coming clean about 
its past weaponization activities or submitting to snap 
inspections of suspect facilities and that if you were still 
the Director of the CIA, you would ``advise the President that 
the agreement could not be adequately verified.''
    The IAEA has said that Iran is not in compliance and can't 
verify its nuclear program, and our intel community has 
assessed that we cannot independently verify Iran's nuclear 
program.
    Therefore, General Hayden, I will ask you this: What kind 
of threat is posed to the interests of the United States, to 
our allies, to global security since the administration is 
constructing a deal that can't be verified or monitored? And 
what could be the impact if Iran were to actually secure a 
nuclear weapon?
    Secondly, how will the other actors in the region respond 
to a deal that can't be trusted? And, lastly, given the fact 
that our intelligence has not been able to detect Iran's 
nefarious activities in the past, how can we believe that we 
can detect them now?
    General Hayden. Thank you, ma'am.
    First of all, just point of clarification: We can't verify 
this agreement in a noncooperative regime. All right. That is 
why we need the robust inspection regime.
    So I was asked this question as I was leaving government 
during the transition. So how many nuclear--well, what is 
Iranian nuclear doctrine? And I answered quite honestly, ``I 
have no idea.'' And, well, how many weapons do you think they 
will get? Oh, three, four, I am not sure. How many do we have? 
Oh, tens of thousands. So, then, why can't we deter them? And I 
said, ``Ah, now we have come to--now we have come to the 
matter.'' This is not about deterring them. This is about 
deterring us.
    Look at Iranian behavior without one of these kits in the 
garage. And I use those terms carefully. Even without the test, 
even without the nuclear detonation, a parking close enough to 
the nuclear weapons reality that there is great ambiguity, how 
much more confidence do we give the Islamic republic in 
continuing the kinds of activities that we have seen them do 
and you have cataloged in your commentary at the beginning of 
the hour? How much more involvement in Iraq and Syria and 
Afghanistan, in the Gulf do we see when they have got one of 
these things, which is kind of that whole card that they can 
turn face up at any time?
    With regard to what the neighborhood does, the definitive 
fault line now in this part of the world isn't Arab-Israeli, 
isn't moderate, religious, secular--the defining fault line 
here is Sunni-Shiia. And that may be good, it may be bad. But 
it certainly is.
    I can't conceive of the Sunni states continuing to exist 
with a Shiia state, Iran, having or too close to having a 
nuclear weapon without taking actions on their own. And so here 
I would see nuclear development within these countries, perhaps 
not going to creating fissile materials.
    But let me give you a thought, a scenario that surely can't 
bring you much comfort. How about a Pakistani nuclear guarantee 
for the Kingdom of Saudi Arabia in the face of Iranian nuclear 
weapons programs? Now, that can't make you sleep well at night?
    Ms. Ros-Lehtinen. Thank you very much. Thank you.
    Thank you, gentlemen.
    I would now turn to Mr. Deutch of Florida.
    Mr. Deutch. Thank you.
    Thanks, Madam Chairman.
    I wanted to just ask you about what a lot of us take as a 
threshold issue here, which is how can we expect to reach any 
sort of comprehensive agreement that is verifiable if we 
don't--if we are not able to get past the very fundamental 
questions of the history of Iran's nuclear program?
    In 2020--it is now more than 2 years ago that the P5+1 
asked that the IAEA be able to finish its work in Parchin. And, 
to date, at least as far as I know, the Iranians haven't 
permitted that. If they can't come clean about the past 
military dimensions of the program, how is it possible to 
expect that any agreement can be valid going forward?
    Mr. Dubowitz. Well, Congressman Deutch, I mean, you are 
exactly right. We can't have that confidence. And, again, I 
think this has been misrepresented in the public domain, that 
this is about Iran's mea culpa, that Iran has to come clean and 
make a confession. This is not about a confession.
    This is about can you design--as you alluded to, can you 
design a proper verification and inspection regime? Because if 
you don't know where Iran was conducting its past weaponization 
activities--and, by the way, the IAEA says that there are still 
possible military dimensions of the program still ongoing. 
Then, if you can't--if you don't know where they did it, if you 
can't interview the people involved, if you can't see the 
documentation, if you don't have eyes into those details, then, 
it is very difficult to design a comprehensive verification and 
inspection regime for the future.
    And so, this is why PMDs are so critical. This is why the 
French, for example, have made PMDs their key issue. And 
without that comprehensive verification and inspection regime, 
that is, as General Hayden said, go anywhere, go any time, snap 
inspections, we can see IRGC bases, we can go into military 
bases, any suspected establishment we have access to, then, we 
have no ability to detect an Iranian breakout, sneak-out or 
fake-out. And that has been the history of Iranian nuclear 
mendacity for 30 years.
    Mr. Deutch. General Hayden, we always--we tend to get 
caught up in the discussion of the moment and now PMD is just 
part of this overall discussion.
    But in your experience, what is the real concern that--that 
the whole discussion of the military dimension of the program, 
what we know, what we don't know? What is the real concern and 
how should that impact our discussions going forward?
    General Hayden. Congressman, the real concern is we don't 
know the point at which they are now parked, in terms. And, 
here, we are really talking about the weaponization program. We 
are really talking about the hardening, the miniaturization, 
the science that is involved in creating the nuclear 
detonation. That is not the long pole on the tent.
    The long pole on the tent is the fissile material. And if 
you recall, even in 2007, when we said ``good evidence they 
have stopped weaponization,'' they kept working on the long 
pole, which was the fissile materials. And so you have got 
fissile material being developed--sorry, Congressman. Let me--
let me give a slightly longer----
    Mr. Deutch. Sure.
    General Hayden [continuing]. Answer because something 
strikes me.
    In the transition, again, to the Obama administration, we 
had an NSC meeting about Iran. And the President asked me, 
``How many kilos of LEU and medium-enriched uranium do they 
have?'' And I said, ``Mr. President, I actually know the answer 
to that and I am going to give it to you in a minute, but let 
me give you another way of thinking about this.''
    There isn't a neutron or an electron in Natanz that is ever 
going to show up in a nuclear weapon. Okay. What they are 
building out in Natanz is confidence. What they are building 
out in Natanz is technology and the ability to do this. They 
are going to build the fissile material for a weapon, the HEU, 
at a site about which we have no knowledge. Okay.
    And so this--as Mark points out, our lack of knowledge, our 
lack of an ability to go to locations where they may be doing 
these things gives me very little confidence that we know how--
as I said, we are not going to get an agreement that absolutely 
prevents. We are going to get an agreement that creates enough 
space for us to do something between the decision to go and the 
decision to have.
    Mr. Deutch. Thank you, General Hayden.
    Mr. Sadjadpour, in my remaining few seconds: Does the 
Iranian--do the Iranian people want the right to enrich as much 
or more than a government that is not repressive, that doesn't 
violate human rights, that respects freedom of the press and so 
on?
    Mr. Sadjadpour. Representative Deutch, there has never been 
an open discussion in Iran about the nuclear issue.
    Recently, a prominent intellectual, Sadegh Zibakalam, who 
questioned the wisdom of Iran's nuclear program was sentenced 
to 18 months in prison. So, despite the fact that the 
government says that the population is united behind the 
program, they don't allow for open debate.
    Recently, a former minister in Iran said the ancillary 
costs of the nuclear program have been upwards of $400 billion. 
I think if you posed the referendum to the Iranian people, 
``Would you like $400 billion to be spent on hospitals and 
schools, or would you like $400 billion spent on an antiquate 
nuclear program, which has isolated the country politically and 
economically,'' I think the vast majority would prefer the 
former. But this is a program, which is not driven by the 
Iranian people, but by the Iranian Government.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Wilson of South Carolina.
    Mr. Wilson. Thank you, Madam Chairman. And thank you for 
your leadership on this issue.
    And we appreciate each one of you being here today. And, 
Mr. Sadjadpour, your analogy of Korea was very thought 
provoking, and I really hope the people of Iran think about it, 
too, because the extraordinary success of South Korea is 
something to be emulated everywhere in the world. And it was 
really intriguing.
    General Hayden, in your testimony, you mentioned creative 
solutions and what--that we should be cautious of them. Could 
you expand on what a creative solution is and why we should be 
wary?
    General Hayden. The one I had in mind, Congressman, was the 
one that have been floated with regard to the number of 
centrifuges. I know what all of us in the room would like, is 
that the right number is zero. But I think the cost of 
admission to the current negotiations was an agreement that 
there would be some enrichment in Iran. Now, we can judge 
whether that is good or bad, but I think it truly is.
    So, now, the debate is how many. All right. My very 
unscientific number is maybe four to 5,000. The regime has 
19,000. The Supreme Leader is talking in tens and scores of 
thousands.
    The creative solution we have is, well, they wouldn't 
dismantle the centrifuges. They disconnect the plumbing so you 
couldn't use them in sequence to enrich uranium. It is those 
kinds of things that make me uncomfortable. That the Iranians 
are holding their ground--just in the tactics of negotiations, 
they are holding their ground and we are coming up with, 
``Well, how about this'' as another way to get some sort of an 
agreement. I am just made very uncomfortable about that.
    Mr. Wilson. And thank you for your insight because it 
really is very important.
    Mr. Dubowitz, in your testimony, you reference analysis of 
a recent IAEA report that indicates Iran has directly violated 
terms of the joint plan of action. How has the administration 
responded to this evidence of Iranian cheating? I am concern 
that Iran will continue in incremental cheating, and the 
international community won't respond effectively.
    What kind of punishments for breaches to the JPOA or 
violations of a possible comprehensive agreement should be put 
in place to send a message that no cheating of any sort would 
be tolerated?
    Mr. Dubowitz. Congressman, thank you for the question. And, 
actually, it gets to Karim's comment that, you know, we should 
set up it so that Iran's abrogation should trigger sanctions. 
Well, in fact, if H.R. 850 and S-1881 had been in place, those 
sanctions in waiting would have been triggered and rightfully 
so, because the Iranians were cheating on the JPOA. And what 
they were doing is they were introducing UF6 gas into an 
advanced centrifuge, into the IR5. And that was a violation of 
the JPOA. It was in the IA report, and it was detected and 
publicized by David Albright.
    And this is an example of what Iran does when I say ``they 
cheat incrementally and not egregiously'' and that they are 
testing the boundaries of our willingness to respond. And there 
was no response. There were no sanctions. There was no economic 
cost. And the message to Iran is, when there is a comprehensive 
agreement, you can cheat incrementally, you can exploit 
ambiguities, you can find workarounds. And the Iranians are 
experts at doing this. The regime is an expert sanctions 
buster. It is also an expert at busting the spirit and the 
commitments that they make.
    And so what can we put in place? Well, what we have to put 
in place is significant economic leverage. We have to be able 
to hit them hard economically when they cheat. So when they 
don't let inspectors into Parchin number 1, 2, 3 and 5, when 
they start moving ahead on advanced centrifuge R&D, when they 
do a number of the things that they are going to do to cheat, 
we have to have sufficient economic leverage.
    My fear and my testimony is that we are going to surrender 
that economic leverage, the President is going to suspend 
sanctions and, through that sanctions relief, Iran's economy is 
going to increase, it is going to harden, it is going to become 
more durable, and it is going to be much more difficult to then 
use economic leverage to force them back into compliance.
    Mr. Wilson. And the response of the Obama administration 
was no response at all?
    Mr. Dubowitz. Well, public reporting confirmed that the 
administration has heard what Mr. Albright had said and had 
spoken to the Iranians, and the Iranians denied having done it, 
and the administration assures us that the Iranians are not 
doing it anymore, so----
    Mr. Wilson. Well, that would be no response. And I share 
your concern.
    In regard to the financial based sanctions, have they been 
effective?
    Mr. Dubowitz. Financial sanctions have been very effective. 
And I just want to point out, again, your letter of July 20th 
makes this very clear, those financial sanctions are not 
nuclear sanctions. Secretary Lew, Under Secretary Cohen, Under 
Secretary--former Under Secretary Levy have all made clear that 
the sanctions, the financial sanctions that have been put in 
place are because of a range of Iran's elicit activities. It is 
nuclear, it is ballistic missile, it is terrorism, it is money 
laundering, it is elicit financial conduct.
    In fact, administration officials have repeatedly said we 
put the financial sanctions in place to protect the integrity 
of the global financial system. It would be a big mistake to 
unwind those financial sanctions because we have a nuclear 
deal. We have seen this movie before, it was called North 
Korea. And the unwinding of the sanctions against Banco Delta 
Asia, and we saw two subsequent nuclear tests after that and 
the unwinding of the tough financial sanctions against North 
Korea.
    Mr. Wilson. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Wilson.
    Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair.
    General Hayden, you had said that the knowledge of the 
Iranian nuclear program is incomplete. And here is what we do 
know. The growth of the program, obviously, in the last decade 
has been explosive--163 centrifuges, which are the machines 
that I understand mix at supersonic speeds to enrich uranium to 
bomb-grade. There are now 19,000. There are heavy water 
reactors, which are used to create plutonium, which is another 
bomb fuel.
    My concern is not as much even for the current capacity of 
Iran to create a nuclear weapon; it is the second and third 
generation. It is the things that they are doing now. It is the 
knowledge in this multibillion-dollar atomic infrastructure, or 
they created it, which is a huge part of the economy and 
finances the Revolutionary Guard, that you can't destroy 
knowledge.
    So what is it additionally that we don't know? Because I 
will tell you something. From what we do know, it is pretty 
compelling that we shouldn't pull back on sanctions, that we 
should be accelerating.
    You know, the Supreme Leader, Khamenei, used to say, you 
know, that the sanctions don't hurt us, you know, they make us 
stronger, they make us economically independent. But his 
statements in the last, you know, 12 months, he is talking 
about, you know, the sanctions are brutal, both in terms of 
inflation and oil output and currency valuation, even to the 
extent that you can't get chickens at Ramadan because there is 
no chicken feed.
    So what don't we know?
    General Hayden. Well, number one, Congressman, we don't 
know where everything is. All right? The facilities we know we 
know, and we don't know what we don't know.
    Qom, for example, Fordow, all right? We discovered that 
before it became operational, but it was fairly far along 
before we discovered it. And it was a major facility, and we 
actually had some help in order to make our initial discovery 
there.
    We don't know about the weaponization program, the details. 
How far along are they, for example? How quickly are they 
transforming from IR-1s to IR-2s, the advanced centrifuges?
    So, to take your point, as they build competence, as they 
build technology, the footprint that they need to do the 
breakout sprint to highly enriched uranium, that footprint 
becomes smaller and smaller.
    And back to my point, they are not going to do this at 
Natanz, because they have to kick the IAEA out, literally, to 
do that. That is a trigger. They are going to do it somewhere 
else, a somewhere else about which we have no knowledge at the 
present time. And this gets harder to detect as their 
efficiency increases and, again, the footprint that has to be 
shown gets smaller and smaller.
    Mr. Higgins. Mr. Dubowitz, you said that Iran is at the 
table because of sanctions. And that is your area of expertise, 
the sanctions history.
    What is it that we are not doing that we ought to be doing 
to further apply pressure on the Iranian regime?
    Mr. Dubowitz. So, very specifically, Iran still exports 1.3 
million barrels of oil----
    Mr. Higgins. To?
    Mr. Dubowitz [continuing]. And an additional couple hundred 
thousand barrels of condensates.
    Mr. Higgins. To? To whom?
    Mr. Dubowitz. They are exporting it to China, India, Japan, 
South Korea, Turkey, and Taiwan.
    Mr. Higgins. Okay. Keep going.
    Mr. Dubowitz. And H.R. 850, which has cleared your 
committee, would have taken a significant bite out of those 
exports. It would have closed the condensates loophole. It 
would have denied them essential oil revenues.
    They also have $120 billion of oil revenues sitting in 
escrow accounts around the world. They are semi-restricted, 
meaning they can only spend that money in the six countries 
that I named earlier on bilateral trade. So you could----
    Mr. Higgins. Where is that money being held?
    Mr. Dubowitz. It is, again, held in China, India, Japan, 
South Korea, Turkey, and Taiwan----
    Mr. Higgins. Yep.
    Mr. Dubowitz [continuing]. And only used for bilateral 
trade purposes. But Iran can use the money. So you could lock 
up the full $120 billion and deny them all of that revenue and 
they wouldn't have money to fund their imports.
    Again, those are two ideas that would take a serious bite 
out of the Iranian economy.
    And, more importantly, it sometimes is not the substance of 
the sanctions, it is the psychology of sanctions. In an 
escalating sanctions environment, like we saw between 2007 and 
2013, the psychological blow of sanctions created a sense of 
fear in international markets and a sense of despair in the 
Iranian domestic economy. And that translated into a severe 
economic recession that Iran is now emerging from.
    Mr. Higgins. Okay.
    My time has expired.
    Mr. DeSantis [presiding]. The gentleman's time has expired.
    The Chair now recognizes the gentleman from Illinois for 5 
minutes.
    Mr. Kinzinger. Well, I thank the chairman.
    And thank you all for being here.
    And, General, it is great to see you. From one Air Force 
guy to another, I thank you for your service.
    It is sad because, to me, you know, we are sitting around 
talking about what could happen or what will happen, and none 
of this surprises me. I mean, honestly, I could have told you a 
year ago that we would be extending the interim agreement for 6 
months, that we wouldn't come to a conclusion, that we would be 
sitting here 4 days prior to the 1-year deadline and probably 
will get some kind of a request, either a terrible deal that 
miraculously has a breakthrough at the end or, more than 
likely, another request for an additional 6 months or however 
long the administration will want, which, to me, is going to be 
interesting because I don't understand what can happen in a 
further 6 months or any further time period that could compel 
Iran to come to the table that hasn't been able to occur in the 
first year. I mean, there is not going to be any additional 
step-up of pain or anything like that.
    I also think it is important to remind everybody, 
especially when we talk about ISIS but when we talk about this 
issue too, Iran is not our friend. Probably a significant 
number of American casualties that occurred in the war I was in 
in Iraq occurred directly or indirectly from Iran--from Iranian 
actions directly, from Iranian technology that was exported to 
terrorists for one purpose, to kill American soldiers. That is 
why it was sent. So this technology was compiled in Iran and 
exported to Iraq for the sole purpose of killing young men and 
women from the United States of America. Okay? Let's just 
remember that. This is the Iran that we are talking about.
    And now we find ourselves in a situation where, you know, 
we are 4 days out from trying to guarantee that they won't 
build a nuclear weapon. We have to send a message to South 
Korea that has begged for the right to do some kind of 
reprocessing and recycling that we are going to give, 
potentially, the right to enrich to our worst enemy but yet our 
best friend, among our best friends, will not have the equal 
right. We all know that debate.
    I have a question that I would like to ask first off. Let's 
talk a little bit about what happened in North Korea. I was a 
young guy when there was the discussion of possibly striking 
locations in North Korea. I believe that President Clinton at 
one point had been ready to give the go order, and then it was 
backed off when a breakthrough deal was reached with North 
Korea to prevent them from obtaining nuclear weapons. We all 
know that basically, theoretically, a little bit later, they 
had a big parade and we saw nuclear weapons and they were 
nuclearized.
    What lessons did we learn from that that we ought to apply 
to this moment here? I know you guys addressed North Korea when 
I was out of the room, so if we are reiterating, please forgive 
me. So I want to talk about that.
    And the other thing I want to say is this--or the other 
question I want to ask is this. What kind of a message is it 
going to send, not just to Iran but to Russia, to all these 
hotspots we are dealing with around the world, if at the point 
the deadline, the red line comes up with a deal with Iran we 
simply extend it and go back to negotiations?
    So, General, I will start with you, both the issue of North 
Korea as well as the issue of what message are we going to send 
to the world and not just in the Iran situation.
    General Hayden. Thanks, Congressman. I will be very 
efficient.
    When we were negotiating with the North Koreans in 2008, 
early 2009, I mean, our judgment was simply they are not going 
to give up their weapons program. They can't. It would be 
irrational on their part, given their world view. All right? 
There is a bit of that inside the Iranian regime, as well. And, 
you know, my job is to try to think like they think, so forgive 
me while I lay out the point of view from a serious person in 
Tehran.
    They went to school on what happened to Muammar Qadhafi. 
All right? Here was someone who gave up his WMD program in 
negotiations with the United States in return for what he 
perceived to be a bit more welcoming international community. 
And we ended up over a 10-month period with a sustained bombing 
campaign under NATO, overthrowing that government and leading 
to his death.
    And so even the calmer people in Tehran, you know, not the 
apocalyptic ones, are saying, oh, so that is what happens to 
you when you give up this kind of program. So I don't have to 
demonize the Iranians to tell you I have come to the conclusion 
that this is too important to them for them to give it up.
    When we went out of the gate the first time--what now, 10 
months ago?--I was very careful with my public commentary to be 
broadly supportive of the negotiations. I wanted to exhaust all 
possibilities. But I learned in my last job at CIA to think 
ahead, think of what you think--think of what people are going 
to want you to think in 10 months. And so I thought through the 
process of, what if we don't get an agreement in 6? What is an 
okay process then?
    And when we began--I am talking 10 or 11 months ago--my 
conclusion was, I will give it one more 6, I will give it one 
more period. But what we can't stand is the diplomatic 
equivalent of a continuing resolution, you know, where we have 
them too close and we are not pushing them back.
    Mr. Kinzinger. Thank you.
    I would love to hear from you, but we are out of time, so I 
will I yield back.
    Thanks.
    Ms. Ros-Lehtinen [presiding]. Thank you, sir.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Madam Chair.
    And thank you to the witnesses.
    General Hayden, I want to build on what you were just 
saying. So if it is, in fact, the case that the Iranians or the 
regime believe that the development of a nuclear weapons 
program is necessary for their self-defense, is there any 
reason to have any hope that there will ever be a resolution 
which includes an agreement to dismantle the program that they 
find necessary for their self-defense? Or is there some other 
set of systems or defense capability that would replace, 
potentially, their belief that they need it to defend 
themselves? Or is that just beyond----
    General Hayden. I don't think there is a military answer 
from their point of view that gives them the same kind of 
assurance that the ambiguity of the program, not the actual 
detonation, maybe not even the possession--that is why good 
people--number one, Congressman, that is why this is a problem 
from hell. There are no good off ramps.
    But that is also why some good people, like Amos Yadlin, 
who was my counterpart in the Israeli Defense Force--General 
Yadlin thinks you can't get the small deal, ``small'' as being 
defined as the nuclear deal. You can only get the nuclear deal 
inside of a much larger deal between Iran and the West. And we 
have already talked about how difficult that would be, given 
all of the other parameters.
    Mr. Cicilline. So you take that assessment and you add to 
it the testimony you provided with respect to the incredible 
difficulty, maybe impossibility, of verifying the activities of 
the regime. When you take those two facts together, does it 
make it even less likely?
    General Hayden. Yes, sir, it does.
    Look, when I do this publicly, I do a little Venn diagram 
in the ether here. Here is everything the Iranians can 
legitimately give up. Here is everything we legitimately need.
    Mr. Cicilline. They don't intersect.
    General Hayden. They don't intersect.
    Mr. Cicilline. So, then, if, in fact, the conclusion of 
these negotiations is some determination that we can't reach an 
agreement and the parties stop the negotiations, I would like 
to know what your assessment is of what happens next.
    Mr. Dubowitz, Mr. Sadjadpour might also add to it, but 
starting with General Hayden.
    General Hayden. That is why we left this an ugly baby for 
the next administration. We didn't have any good answers.
    You know, the other answer is, well, then, we have to go 
physical, we have to go kinetic. And Secretary Gates used to 
consistently say in our meetings, if we go kinetic, we will 
guarantee that which we are trying to prevent, an Iran that 
will stop at nothing, in secret, to develop a nuclear weapon.
    Mr. Cicilline. And do you think that is----
    General Hayden. Yeah. Yes, sir.
    Mr. Cicilline. Mr. Dubowitz?
    Mr. Dubowitz. So, Congressman, I think there is, first of 
all, another kinetic option and there is another economic 
option.
    The kinetic option is not necessarily to strike Iran's 
nuclear facilities today. The kinetic option is to actually 
ground the Assad air force, an air force that is dropping 
barrel bombs on Syrian men, women, and children. The Syrian 
regime is Iran's closest ally in the Middle East. They have 
gone all-in to support Assad.
    And it is also going to be critically important to the 
defeat of ISIL that we actually are finding a way to support 
the Syrian Sunnis, who have been increasingly radicalized 
because of the butchery of the Assad regime, and they have 
turned, as a result, to ISIL.
    So I think the kinetic option is to actually--as part of 
the administration's Syria review process is to look at 
grounding Assad's air force and moving militarily against 
Iran's closest ally in the Middle East.
    The economic option is--again, there are a tidal wave of 
sanctions that are possible. There are also phased, calibrated 
sanctions that will begin to tighten the squeeze on Iran and do 
so in a way that is not going to necessarily lead to a 
significant nuclear physics escalation from the Iranians.
    Mr. Cicilline. But can I ask you, Mr. Dubowitz, on the--
with respect to additional sanctions, you know, I have read a 
lot of material that talks about the ability of the leadership 
of the regime to sort of protect themselves from the impact of 
sanctions and, in fact, to even benefit from some of the market 
conditions that result from sanctions.
    And it seems to me, long-term sanctions can only work if 
ultimately they create conditions which cause people in the 
country to assert pressure on the government or the regime to 
change. And it doesn't sound like, from any of the testimony 
today or anything we have heard in this committee, that there 
is any likelihood that that pressure is going to be 
sufficiently strong to actually change the regime so long as 
things like the gentleman who spoke out and is imprisoned for 
18 months for just questioning the worthiness of the program.
    So, you know, speak to that question of, how do we impact, 
you know, the folks who are making the decisions in the regime, 
who I think sometimes actually benefit from these sanctions?
    Mr. Dubowitz. So the elites will always benefit, but the 
question is, can you shake the economy--the macroeconomic 
fundamentals of an economy, that the regime fears economic 
collapse?
    And what we saw in 2009, combined with 2012 and 2013, was 
millions of people on the street in 2009, yelling, ``Death to 
the dictator,'' ``President Obama, are you with us or with the 
dictator?,'' and in 2011, 2012, an economy that was facing a 
balance-of-payments crisis and that was in a severe recession, 
which combined to create fear in the regime that this Green 
Revolution would become a blue revolution, that it would lead 
to millions and tens of millions of Iranians outside of the 
middle-class suburbs of North Tehran but into the cities and 
towns of Iran and labor strikes in the key energy sector--in 
fact, conditions that we saw in 1979 that led to the Iranian 
revolution in the first place.
    That combination created terror, in my view, and the regime 
has avoided that now. They have repressed the Green movement, 
as Karim has said, and they have also dealt with this economic 
stress by moving away from a severe recession into a modest 
economic recovery, thanks to the sanctions relief and the de-
escalation of sanctions pressure.
    Mr. Cicilline. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Dr. Yoho?
    Mr. Yoho. Thank you, Madam Chair.
    I appreciate you guys being here today.
    And, General, if you had a hard time sleeping before, I am 
sure you have a really hard time sleeping now. I never have a 
hard time sleeping, but I do now since I have been on Foreign 
Affairs.
    I have been here for 2 years--this is my first term--and I 
have had multiple hearings on this subject. All the experts 
have said that Iran is, you know, 5, 6 months away from having 
enough material to have a nuclear bomb. That was 1 year ago, so 
I can only assume they have enough material.
    And I agree with you in that their two pillars are the 
rejection of U.S. influence and the rejection of Israel's 
existence. I don't think they have wavered on that. And I have 
watched this for over 30 years, since the oil embargoes of the 
1970s.
    And they are hellbent on getting a nuclear weapon. Would 
you agree with that?
    General Hayden. I would change that slightly. They want to 
keep that door open, and visibly open, that they have the 
nuclear option to exercise, to go to a weapon.
    Mr. Yoho. Okay. But what I am seeing for the last 30 years 
is a cat-and-mouse game where they say they are not doing it 
but we find out they are, and they are doing it----
    General Hayden. Oh, they are clearly--they are clearly 
setting the stage for it.
    Mr. Yoho. And so we know what their intent is.
    And I guess a couple questions I have here: How do you get 
Iran to roll back their program? What is the impetus that is 
going to make them roll back?
    Because with the sanctions that have been in place, they 
were still continuing. They have not stopped. They have gotten 
closer, and they have got the ICBM program going on. And I 
agree 100 percent with you; what they are doing is refining the 
technology. They don't need as many centrifuges. They are more 
efficient with the smaller ones or the higher-tech ones. So 
they can do a better job, and they can keep that hidden, 
covert.
    In order to negotiate an agreement, there has to be trust, 
understanding, character, integrity, and verification. I have 
seen none of that. I mean, they throw the IAEA out, the 
International Atomic Energy Agency out every chance they get, 
or they prevent them from going in. We know they have exploded 
a nuclear trigger device, but they have covered that up. They 
have covered it up with a parking lot. And there is just no 
trust there.
    And so, with these negotiations, do you feel the sanctions 
were backed off too early?
    General Hayden. That is a tough call.
    Mr. Yoho. Mr. Dubowitz, how about you?
    Mr. Dubowitz. I am certainly on record repeatedly saying 
that. I mean, I think that we had brought them very close to 
a----
    Mr. Yoho. I agree.
    Mr. Dubowitz [continuing]. Balance-of-payments crisis, and 
4 or 5 more months of sanctions escalation would have presented 
this regime--and let me just actually--it is not just me saying 
this.
    Mr. Yoho. No.
    Mr. Dubowitz. When Rouhani came into office, he said it.
    Mr. Yoho. Right.
    Mr. Dubowitz. I mean, he actually came out and said, ``It 
is worse than I expected.'' Now, politicians always say that. 
``The other guy did a bad job'' and----
    Mr. Yoho. Right.
    Mr. Dubowitz [continuing]. Lowering expectations so that I 
can exceed them. But you had many Iranian officials--the 
President, economic officials--coming out and saying, ``This 
economy is a complete mess. It is worse than we expected.''
    Mr. Yoho. Right.
    Mr. Dubowitz. So they were very close to an even more 
severe economic crisis.
    Mr. Yoho. All right.
    Let me ask you, what did we get out of the negotiation? I 
mean, usually, when you negotiate, there is something that you 
get. I don't see anything that we got. I mean, we still have 
four Americans over there that--I don't want to put Americans 
as hostages and negotiate for them, but I don't see anything 
that we got to even open up these negotiations. I think we 
should have carried them on another 5, 6, 7 months, 1 year.
    How likely is it--well, if we continue with the 
negotiations and we extend it, do you see Iran backing off on 
their ultimate goal of getting a weapon?
    General, go ahead.
    General Hayden. Again, I do not see them backing away from 
keeping the option open----
    Mr. Yoho. Keeping the option open.
    General Hayden [continuing]. And turning to a weapon.
    Mr. Yoho. Mr. Sadjadpour, how about you?
    Mr. Sadjadpour. I agree with the General, in that I have 
always thought Iran's ambitions are to have the capability, not 
necessarily to weaponize.
    Mr. Yoho. All right. So they want to have the right to do 
that, is what they are working on.
    And so, with the sanctions, they were doing that anyways. 
All right? They were getting closer to that. Now that we are in 
negotiation, they are going a little bit faster. They are 
getting the technology. So what I see is they are going to do 
it regardless.
    What would be the effect if we just pulled out and says, 
``You know what? You are not playing fair. We don't like the 
way you are playing. We are just going to put the sanctions 
back until you are serious about it''? I mean, is that an 
option that you would recommend?
    Mr. Sadjadpour. I think, Congressman, it is important to 
contrast the current Iranian Government with the predecessor 
government of with Mahmoud Ahmadinejad. Two years ago, 
Ahmadinejad united the international community against Iran. 
Countries like Russia, China, Europe, which actually have 
disparate interests vis-aa-vis Iran, united around the same 
policy.
    I think this time around it is going to be much more 
difficult to maintain international unity, especially if the 
United States issues what I would say are unilateral sanctions 
against Iran. You may see the P5+1 split up and Iran exploit 
those divisions, which would be a very negative outcome for us.
    Mr. Yoho. I am out of time, and I thank you.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    Mr. Connolly of Virginia.
    Mr. Connolly. Thank you so much, Madam Chairman.
    In some ways, the previous President--you were referring to 
the regime blaming the other guy. It took us 4 or 5 years to 
learn how to pronounce his name, ``Ahmadinejad.'' Maybe we miss 
that part of him.
    I guess I am not sure I am following where this testimony 
is all going or where my colleagues want us to go.
    So would we be better off if we had not had the interim 
agreement? Should we have just walked away from it and said, 
no, we don't trust you, we don't like you, we have lots of 
other issues as well, we think you are headed inevitably to a 
nuclear capability, and therefore we are not going to pursue 
the negotiation option? Should we have done that?
    General Hayden. I will jump in first, Congressman.
    The other options are so bad that I, personally, 10 months 
ago, 11 months ago, that is why I was willing to tolerate 
negotiations with a state I believed to be a fundamentally 
unreliable negotiating partner.
    Mr. Connolly. Right.
    General Hayden. I was willing to give this a chance.
    Mr. Connolly. So you----
    General Hayden. But it depends on the character of the 
agreement.
    Mr. Connolly. I agree. But I wanted to get that--I mean, 
given all other options, we should have pursued this and tried 
to make it work?
    General Hayden. Again, given how bad all the other ones 
were, we needed to exhaust the table before we started to turn 
to the others.
    Mr. Connolly. Mr. Dubowitz?
    Mr. Dubowitz. Congressman, I agree. I mean, as I said in my 
testimony, I think that a peaceful resolution of the Iranian 
nuclear crisis was the right way to go. I think a negotiated 
agreement is the right way to go.
    I think the dispute that is taking place now is between 
those who are skeptical of Iran and those who may be skeptical 
but they fundamentally believe that there has been a sufficient 
change in the domestic environment in Iran and in any 
interfactional power balance that we should be supporting 
Rouhani and Zarif against the hardliners and that we have a 
chance to fundamentally change the Iranian regime's approach to 
its nuclear weapons program.
    I don't believe that there is a fundamental distinction 
between the so-called moderates and the hardliners. They are 
all united around a common objective.
    I do think that we can do a better job of negotiating with 
the Iranian regime. I think we--we didn't have to give up four 
concessions right up front as part of the JPOA and diminish our 
economic leverage at the same time.
    Mr. Connolly. Yeah, and I want to get there, because that 
is my next question.
    But did you want to comment, Mr. Sadjadpour?
    Mr. Sadjadpour. Yeah, Congressman. As Henry Kissinger often 
says, we have to weigh these major foreign policy decisions not 
against the ideal alternative but the realistic alternative.
    Mr. Connolly. Right.
    Mr. Sadjadpour. I think we would all agree here there 
wasn't a better alternative than the interim deal.
    I would also add that the interim deal has done a few 
things which have been useful. We got Iran to pull its car over 
to the side of the road; it is not making forward progress----
    Mr. Connolly. Right. And I think that is really important, 
because--all right, we have now established all three of you 
agree, given the options, we had to go that route. And I think 
I am hearing you admit, or say, it is not all bad. I mean, some 
of my colleagues get carried away maybe a little bit, and you 
would think that this interim agreement has been an abject 
failure in all respects. That is not true.
    But moving forward, there is the question, Mr. Dubowitz, 
you were I think getting at, which is efficacy. We want a non-
nuclear Iran. If I am hearing General Hayden correctly, your 
view of history and your view of intelligence is that is an 
unachievable goal, given what options we have in front of us. 
The what you euphemistically call the ``kinetic'' option would 
actually have the opposite effect, you said, which we may want 
to make sure Prime Minister Netanyahu understands. And we could 
bomb or take out Assad's air force. I am not sure, in terms of 
efficacy, that will deter Iran from pursuing a nuclear option. 
We can double down on sanctions, which guarantees that Rouhani 
cannot politically stay at the negotiating table, which 
effectively will end negotiations and probably seal our fate in 
terms of what happens next: We either accept the nuclear Iran 
or we take it out militarily.
    I don't see a lot of good options here. And I see Congress 
doing what it usually does, which is cavil, but not have any 
helpful solutions in terms of, well, then, what will we do.
    Mr. Dubowitz. Congressman, I disagree with you, because I 
don't think Rouhani is going to leave the negotiating table. I 
think the Iranians are going to stay at the table. I think the 
fact----
    Mr. Connolly. Even if we double down----
    Mr. Dubowitz. Even if we double down.
    Mr. Connolly [continuing]. On sanctions?
    Mr. Dubowitz. Even if we double down on sanctions.
    Mr. Connolly. Huh.
    Mr. Dubowitz. Because I think that they need to stay at the 
table. They need to stay at the table because they need to 
figure out a way to get themselves out from under this 
international pressure. I agree with Karim. I think that is 
part of their strategy.
    They also need to stay at the table because, for them, 
diplomacy has actually been very useful--with the Europeans 
from 2003 to 2005, with us. Diplomacy is the way to move their 
nuclear program along.
    The car is not at the side of the road, by the way. On 
certain elements of the nuclear program, like 20-percent 
enriched uranium, we have made some progress, but the Iranians 
are moving on other aspects of the program. To Congressman 
Deutch's point, we don't know what they are doing on 
weaponization. They could be moving their weaponization 
activities down the fast lane as quickly as possible, and we 
don't know. Advanced centrifuge R&D. As Olli Heinonen has said, 
they could have thousands of advanced centrifuges somewhere 
that we don't know about, and they could be manufacturing them 
today.
    Mr. Connolly. Yeah.
    Mr. Dubowitz. So it is incorrect, A, to say that the 
Iranians have no other option but to walk away, because if they 
walk away and they walk away, they will be faced with a tidal 
wave of sanctions that will collapse their economy.
    And, B, there are inherent flaws in the JPOA that need to 
be corrected, and a comprehensive agreement needs to be a more 
effective agreement. And there are very good reports out there 
and analysis that shows how it can be better. We all agree 
there should be a negotiated agreement. We just think it should 
be a fine agreement.
    Mr. Connolly. Yeah. I----
    Ms. Ros-Lehtinen. Although your time is over, Mr. Connolly, 
I know General Hayden would like to respond.
    Mr. Connolly. Thank you.
    General Hayden. Thank you, ma'am.
    Congressman, another way of thinking about it perhaps: You 
think about this as two clocks going. All right? One clock is 
the clock on the Iranian nuclear program, and the other clock 
is the potential for change within the Iranian political 
system. I mean, we don't want to treat Iran like Japan, because 
Iran is not like Japan, but Iran doesn't have to stay not like 
Japan forever.
    And so maybe one way of thinking about this is what we are 
really trying to do here is to slow their progress, to slow 
this clock down, to leave the potential for other developments 
over here to take place.
    And there are a variety of tools to slow that clock down. 
There are sanctions, there are embargoes, there is covert 
action, and there are negotiated settlements, duly, carefully 
arrived at, that make it more difficult for the regime to speed 
up this clock.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Connolly.
    Mr. DeSantis?
    Mr. DeSantis. Thank you, Madam Chair.
    Yeah, I just want to associate with what Mr. Dubowitz just 
said. I think that, you know, more pressure--you know, Iran--it 
may not ever be possible, I have been skeptical, we could 
actually come to a negotiated agreement, but, certainly, 
relieving sanctions, I think, shows them they can get away with 
more. When you are putting more pressure on them, from their 
psychology, I think that you at least have a chance.
    And that is why, General Hayden, I appreciated your 
admonition about trying to think like they think. Because I 
think sometimes some of the folks in the State Department--and 
I think this is indicative, when the President is writing a 
letter to the Ayatollah to try to, you know, seek common ground 
in the fight against ISIS, I don't know that that appreciation 
is there the way it should be.
    Let me ask you this. You had mentioned how Iran looks at 
something like what happened to Qadhafi and they say, well, 
gee, why would we not want to have a weapon? I think that is 
100 percent correct.
    Is it the case--it has been reported, and, kind of, I know 
we say that around here--that when the U.S. deposed Saddam 
Hussein in 2003, that Iran halted its program at that time out 
of fear?
    General Hayden. The National Intelligence Estimate of 2007, 
reflecting back on that period, the Iranians did stop one 
aspect of the program, the weaponization, and not the others. 
They did. It was coincident with the American move into Iraq, 
the American presence in Afghanistan, but my analysts, 
Congressman, were reluctant to draw it as cause and effect.
    Mr. DeSantis. Well, I appreciate that.
    In terms of--so we have talked about North Korea, that 
example. Obviously, that is not a good path for us to follow. 
It didn't work. And I know it is a tough issue. It seems to me, 
if you look in the Middle East, the other examples of nascent 
nuclear states, Iraq in the 1980s, that was neutralized 
militarily by Israel; Syria, 2007, same thing.
    But I noticed there was an article in The Atlantic in 
which, or Jeffrey Goldberg, Bloomberg--he writes for one of 
those--where I think he quoted an administration official 
basically cowing that Netanyahu, you know, he has waited too 
long, he is not going to be able to do anything. And they 
thought that was kind of, like, a good thing.
    And I just wonder, I mean, if Iran does not fear the 
potential credible threat of military force, isn't it much less 
likely that they are going to be willing to make the 
concessions that we are looking for?
    General Hayden. It is very important that Iran believe that 
all options are on the American table. And I am making this 
distinction, Congressman, because this is not about will, it is 
about capacity. And the ability of the Israeli Air Force, much 
smaller than ours, distant from the battlefield and so on, 
their ability to inflict a punishing strike on this nuclear 
program is far less than ours. So it is our will, it is our 
policy that makes the difference and creates leverage in 
negotiation.
    Mr. DeSantis. And in terms of the kinetic targets, that 
with Iran's program, we are looking at something that is much 
more dispersed and difficult compared to Syria and Iraq, 
correct?
    General Hayden. The Osiris reactor in Baghdad, al-Kibar in 
Syria in 2007, a raid. This will have to be a campaign, if it 
were ever chosen.
    Mr. DeSantis. So the underlying problem with the whole 
thing with Iran is that, of course, it is led by an Islamic 
fanatic ideology. And having a new regime there, I think you 
have millions and millions of people who would rejoice at being 
liberated from what is essentially a theocratic, authoritarian 
country.
    Now, we know and I think, Mr. Dubowitz, you mentioned 2009 
and how there was turmoil. So, today, what are the prospects of 
more demonstrations? What are the prospects of there being a 
really credible movement to try to govern Iran in a different 
way?
    Mr. Sadjadpour. Congressman, the discontent which existed 
in 2009 hasn't gone away, but, at the moment, I see no 
prospects for any type of meaningful popular uprising. There is 
no cohesion to the opposition. And I think, frankly, when 
Iranians look around at what is happening elsewhere in the 
region--the carnage in Syria, the carnage in Iraq--I argued 
that in 1979 the Iranians had a revolution without democracy, 
and today they aspire for a democracy without a revolution.
    I think there is an important point here, because there is 
a paradox to U.S. Policy toward Iran which I think it behooves 
us to think creatively about. And that is that I think everyone 
in this room would agree that the underlying problem we have 
with Iran is really the nature of this Iranian regime. We are 
never going to be able to trust its nuclear program is purely 
peaceful. But the challenge is that the policies that we are 
pursuing in order to counter Iran's nuclear program, political 
and economic isolation, I would argue entrenches those very 
hardline forces in Tehran that we are trying to get rid of.
    And I think it is important for U.S. policy to think about 
being aligned with the aspirations of the Iranian people for 
greater political and economic integration rather than being 
aligned against those aspirations of the Iranian people.
    Mr. DeSantis. And I am out of time, but if you could for 
the record maybe submit some examples of what we can do policy-
wise. Because I think that that would solve a lot of problems 
in the region.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairwoman.
    Again, to the witnesses, thank you for sharing your insight 
here, but thank you, more importantly, for the work you have 
done and continue to do. What happens in Congress can't happen 
without the work that you do. But I also want to emphasize that 
I don't think the United States and the international community 
can effectively stop Iran without the work Congress does, so, 
again, to implore the chair and the ranking member to continue 
on that.
    Mr. Sadjadpour, I want pick up on something you said in 
your opening remarks, and that was the prospect--there is so 
much we need to focus on, but I want to stay focused on Monday, 
on the 24th--the prospect of a partial agreement on Monday. The 
principle was and the need for a comprehensive agreement 1 year 
ago was that there would be nothing agreed to until everything 
was agreed to.
    So I guess I will throw this to the whole panel. What 
happens if there is a partial agreement? What does that do? 
What is the consequence of that? And what actions must Congress 
take, in that case?
    Mr. Sadjadpour. Congressman, I think that when both sides 
and, frankly, when all sides--China, Russia, our European 
allies, United States, and Iran--when they contemplate the 
alternatives to failed negotiation--potential return to status 
quo ante, potential escalation, potential conflict--I think 
everyone appreciates the fact that, even if it is not possible 
to meet in the same place to comprehensively resolve this 
issue, it behooves all sides to try to continue to work forward 
and at least extend the negotiations.
    What happens afterwards? It is my sense that if you can 
lock in Iran's current compromises, they are not making forward 
progress, and continue to deter forward progress, keep them in 
place, that is not a bad option for the United States. It is 
what I call ``managed irresolution.'' I think if you have a 
scenario whereby they remain 1 year away from having a nuclear 
weapon, we have averted a conflict in the region. That is not a 
perfect outcome, but, compared to the alternative, it is not a 
bad outcome.
    Mr. Schneider. Okay.
    Mr. Dubowitz?
    Mr. Dubowitz. So, Congressman Schneider, I would say this. 
First of all, Iran is about 2\1/2\ months away from breakout as 
a result of the Joint Plan of Action, which means the length of 
time it takes to weaponize a sufficient amount of uranium for a 
nuclear weapon. We actually don't know, as General Hayden has 
said and others have said, what is happening on the 
weaponization side. So we actually don't know how far Iran is 
from having a nuclear weapon. We know they are 2 months away 
from having weaponized uranium for a bomb. So the status quo is 
fragile, to say the least.
    The second thing is, regardless of what happens on Monday--
I will get back to my original testimony--we have to maintain 
sufficient leverage through these negotiations. And that is 
economic leverage, it is political leverage, it is a credible 
threat of military force. My fear has been, since signing the 
JPOA, that our economic leverage is diminishing.
    And now you, as Congress, are in the position where the 
administration has said to you, we are going to bypass you with 
respect to sanctions relief. And so, as I detail in my 
testimony, there are 12 recommendations about how you can build 
a sanctions relief firewall, how you can ensure that what you 
are putting in place will maintain some of the toughest 
sanctions. It will give a phased and smart program of phased 
sanctions relief and that you can maintain that economic 
leverage.
    Because whether it is a comprehensive deal, a partial deal, 
an extension of the JPOA, at the end of the day the Iranian 
regime is salami-slicing us, and they are stretching out these 
negotiations. They are diminishing our economic leverage. They 
are giving up concessions on the nuclear side that are 
reversible.
    That is the key. Nuclear concessions they give up are 
reversible. Sanctions relief that we give up is irreversible.
    Mr. Schneider. I agree.
    And I just want to give General Hayden the last word with 
two other small questions to that. Because I do think, if there 
is to be sanctions relief, Congress has to have its voice 
heard.
    But, to your point, you talked about clocks, and you also 
talked about the term or duration of an agreement. How far back 
do you think the clock has to be set, in an agreement moving 
Iran from decision to breakout capability, to be effective? And 
how long do you think that agreement has to stay in place to be 
viable and to give us something that we can count on?
    General Hayden. I would begin my discussions at at least a 
year. Okay? And I would begin my discussions with indefinite. 
And I don't mean----
    Mr. Schneider. I agree.
    General Hayden [continuing]. To be flippant. I am quite 
serious.
    Mr. Schneider. No. I use the term ``generations.'' But it 
can't leave the people in power today in power when this 
agreement ends.
    All right. With that, my time has expired. Again, thank you 
for what you do. And thank you to the chair and the ranking 
member.
    Mr. DeSantis [presiding]. The gentleman's time has expired.
    The Chair thanks the witnesses for their time and their 
testimony. We learned a lot, and we very much appreciate you 
taking the time to come.
    And, with that, this hearing is adjourned.
    [Whereupon, at 2:45 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
